APPENDICES
Table of Contents

Appendix A

Opinion Below of the Wisconsin Court of Appeals

1

Appendix B

Wisconsin Statutes and Case

8

Office of the Clerk

J^nprcmc (tttnxri of pStsscmsstit
110 East Main Street, Suite 215
P.O. Box 1688
Madison, WI 53701-1688
TELEPHONE (608) 266-1880
Facsimile (608) 267-0640
WebSite: www.wicourts.gov

March 17,2020
To:

Hon. Keith A. Mehn
Circuit Court Judge
613 Dodge St
Kewaunee, WI 54216

Grant A. Erickson
Erickson Pribyl S.C.
P.O. Box 587
Sturgeon Bay, WI 54235

Connie Defere
Clerk of Circuit Court
Door County Justice Center
1205 S. Duluth Ave.
Sturgeon Bay, WI 54235

Timothy A. Provis
123 E. Beutel Rd.
Port Washington, WI 53074

You are hereby notified that the Court has entered the following order:

No. 2018AP1794

Pflieeer v. Bush-Pensv L.C. #2018CV4

A petition for review pursuant to Wis. Stat. § 808.10 having been filed on behalf of
respondent-appellant-petitioner, Lara Bush-Pensy, and considered by this court;
IT IS ORDERED that the petition for review is denied, without costs.
Sheila T. Reiff
Cleric of Supreme Court

COURT OF APPEALS
DECISION
DATED AND FILED

NOTICE
This opinion is subject to further editing. If
published, the official version will appear in
the bound volume of the Official Reports.

September 17, 2019

A party may file with the Supreme Court a
petition to review an adverse decision by the
Court of Appeals. See Wis. SrAT. § 808.10
and Rust; 809.62.

Sheila T. Rciff
Clerk of Court of Appeals

Appeal No.

2018AP1794

Cir.Ct. No. 20I8CV4

STATE OF WISCONSIN

IN COURT OF APPEALS
DISTRICT III

Timothy Pflieger,
Petitioner-Respondent,
v.
Lara Bush-Pensy,
Respondent-Appellant.

APPEAL from an order of the circuit court for Door County:
KEITH A. M.EHN, Judge. Affirmed.
Before Stark, P.J., Hruz and Seidl. J J.
Per curiam opinions may not be cited in any court of this state as precedent
or authority, except for the limited purposes specified in WlS. STAT. RULE 809.23(3).

PER CURIAM'. Lara Bush-Pensy appeals from an order denying
her motion for relief from a harassment injunction entered in favor of Timothy

1

No. 201 SAP 1794

Pflieger. Bush-Pensy contends: (1) evidence that Bush-Pensy had violated a
stipulation upon which the injunction action had previously been dismissed was
insufficient to support the issuance of the injunction because there was no showing
the violation was intentional and the stipulation was itself illegal and against
public policy; (2) the j udge issuing the injunction failed to disclose contacts lie had
with Pfliegers family in violation of Wis. Stat. § 757.19(3) (2017-18);' and
(3) the injunction is overbroad because it prohibits conduct broader than the
claimed harassment. We affirm on the grounds that Bush-Pensy has failed to
develop any argument showing the circuit court erroneously exercised its
discretion when it refused to grant relief from the in junction.

BACKGROUND
12

On January 10, 2018, Pflieger filed a petition seeking a harassment

injunction against Bush-Pensy.

The petition alleged that after Pflieger and

Bush-Pensy ended their relationship, Bush-Pensy sent Pflieger and one of
Pflieger’s employees a series of over eighty unwelcome text messages, as well as
emails, Facebook messages, and phone calls with voicemails.

13

On February 1, 2018, the parties signed a stipulation to dismiss the

case, agreeing that they would each avoid contact with one another, their
immediate family, clients, associates, employees and co-workers. The stipulation
further provided that the case could be reopened based upon future contact
occurring after the dismissal. In that event, any future contact by Bush-Pensy

All references to the Wisconsin Statutes are to the 2017-18 version unless otherwise
noted.

2

No. 2018API 794

could be deemed harassment serving no legitimate purpose, and the circuit court
could rely upon the stipulation to enter an injunction against Bush-Pensv.

14

On March 12, 2018, Pflieger moved to reopen the case. The motion

was accompanied by an affidavit averring that Bush-Pensv had sent Pflieger three
emails after the stipulation between the parties was filed and the case was
dismissed, along with printouts of those entails. The first email stated “whoever
you are, leave us all alone|,)’’ and it was sent in reply to a message sent to
Bush-Pensv by an anonymous third party. Bush-Pensv copied Pflieger on her
reply to the third party. The second and third emails were electronic notifications
stating "Delete record" and “Delete record file, code 473 495-5272.'’

15

On March 14, 2018, Pflieger sent Bush-Pensv two emails with the

subject line “Judgement Day" stating: “Judgement day is coming for you],]" and
“The final countdown and she won’t be able to shit without my say-so." On
March 16, 2018, Pflieger sent Bush-Pensv another email with the subject line
“Judgement Day" stating: “You’re going to be knocked off your pedestal. They
won’t think you’re so great then. Who do you think you are with your newspaper
articles. Enjoy your last days of freedom. Monday is judgement day for you."

16

On March 19, 2018, the circuit court held a hearing on the motion to

reopen. Bush-Pensy's attorney made an offer of proof that: (1) Bush-Pensy had
inadvertently hit “reply all” in response to the message from the anonymous party;
and (2) Bush-Pensy had sent the second and third messages based on internet
research she conducted about how to delete her phone number from the record of
the person who had sent it, without realizing that those messages would go directly
to Pflieger. The court accepted the offer of proof in lieu of testimony, but it
concluded that Bush-Pensy’s reasons for sending the emails were immaterial

3

No. 201 SAP 1794

because the stipulation was unequivocal that all contact was prohibited and would
constitute further harassment.

The court then entered a four-year harassment

injunction.

1?

On March 22, 2018, Pflieger sent Bush-Pensy an email stating: “I

told you what would happen to you if you crossed me." On March 24. 2018,
someone sent Bush-Pensy an email from Pfliegef s work address with the subject
line “Judgement Day” stating: “Having trouble sleeping?”

18

Bush-Pensy did not move the circuit court to reconsider the

injunction nor did she appeal the injunction.

Instead, on May 22. 2018,

Bush-Pensy filed a motion for relief from judgment pursuant to Wl'S. Stat.
§ 806.07.2 Bush-Pensy claimed she was entitled to have the injunction set aside
either under subsection (l)(g) of the statute because it was no longer equitable to
enforce it given Pflieger's continuing emails to her, or under subsection (l)(h)
because extraordinary circumstances warranted abandoning the finality of the
judgment in favor of an overall sense of justice, according to the five-factor test
set forth in Miller v. Hanover Insurance Co2010 WI 75.136, 326 Wis. 2d 640.
785 N.W.2d 493. In support of the latter claim. Bush-Pensy alleged that the merits
of the injunction had never been fully presented because the stipulation was akin
to a default judgment and because her counsel did not present Bush-Pensy’s
testimony at the hearing to reopen, and that Bush-Pensy had a meritorious defense.
19

The circuit court first observed that, while Pflieger’s alleged emails

from .March 2018 were troubling, Bush-Pensy\s remedy would be to obtain her

2 Judge Melin heard the motion after Judge D. Todd Ehlers recused himself.

4

No. 20! BAP 1794

own injunction against him, not to set aside the prior injunction against her.
Regarding Bush-Pensy’s second claim, the court rejected the assertions that the
merits of the injunction had not been tried or that counsel had provided ineffective
assistance by not having Bush-Pensy testify at the hearing to reopen because the
court had accepted Bush-Pensy’s offer of proof.

The court further rejected

Bush-Pensy's assertion that she had a meritorious defense because it concluded
the three emails Bush-Pensy sent did violate the stipulation. The court found that
Bush-Pensy had not met her burden under Wis. Stat. § 806.07 and denied her
motion for relief from judgment. Bush-Pensy now appeals.
STANDARD OF REVIEW

110

As a threshold matter, we note that neither the circuit court's

decision to reopen the case based upon the violation of the stipulation nor the
validity of the injunction are properly before us on this appeal because Bush-Pensy
did not appeal the injunction.

Therefore, we will not address Bush-Pensy’s

arguments that there was insufficient evidence to support the injunction or that the
terms of the injunct ion were overbroad.3
111

In sum, the scope of our review is limited to determining whether the

circuit court properly denied Bush-Pensy’s motion for relief from judgment under
WIS. SlAT. § 806.07. We review a circuit court’s discretionary decision whether
to grant relief from judgment with great deference, and we will uphold it as long

In addition, we will not address Bush-Pensy’s claim that Judge Billers should have
recused himself from hearing her motion because she concedes in her reply brief that the alleged
contacts between Judge Ehlers and Pflieger that underlie that claim have no evidentiary basis in
the record.

5

No. 201 SAP 1794

as it was supported by a reasonable basis. Sukala v. Heritage Mut. Ins. Co., 2005
WI 83,1]8. 282 Wis. 2d 46, 698 N.W.2d 610.
DISCUSSION
1112

WISCONSIN Stat. § 806.07(1) allows a circuit court to reopen an

order or judgment when: “(g) It is no longer equitable that the judgment should
have prospective application; or (h) Any other reasons justify relief from the
operation of the judgment."

The catchall provision under sub. (h) should be

employed only when extraordinary circumstances are present, taking into
account: (1) whether the judgment was the result of the conscientious, deliberate
and well-informed choice of the claimant; (2) whether the claimant received the
effective assistance of counsel; (3) whether there had been any judicial
consideration of the merits and the interest of deciding the case on the merits
outweighs the interest in finality of judgments; (4) whether there was a meritorious
defense to the claim; and (5) whether there are intervening circumstances making
it inequitable to grant relief. Miller, 326 Wis. 2d 640, ^[36.
fl3

Although Bush-Pensy sought relief under both Wis. Stat.

§ 806.07( l)(g) and (h) in the circuit court, she has not developed any argument on
appeal relating to either the equity of prospective application of the injunction or
the Miller factors. This court need not address undeveloped arguments. State u
Pettit, 171 Wis. 2d 627, 646-47, 492 N.W.2d 633 (Ct. App. 1992). We therefore
reject any claim bv Bush-Pensy- that the circuit court erroneously exercised its
discretion in denying her motion for relief from judgment.

6

No. 2.01 SAP 1794

Bv the Court.—Order affirmed.
This opinion will not be published.
809.23(1 )(b)5.

7

See Wis. Stat. Rule

806.07

Relief from judgment or order.

(1) On motion and upon such terms as are just, the court, subject to subs. (2) and [3j, may relieve a party or
legal representative from a judgment, order or stipulation for the following reasons:
(a) Mistake, inadvertence, surprise, or excusable neglect;
(b) Newly-discovered evidence which entitles a party to a new trial under s. 805.15 (3);
(c) Fraud, misrepresentation, or other misconduct of an adverse party;
(d) The judgment is void;
(e) The judgment has been satisfied, released or discharged;
(f) A prior judgment upon which the judgment is based has been reversed or otherwise vacated;
(g) It is no longer equitable that the judgment should have prospective application; or
(h) Any other reasons justifying relief from the operation of the judgment.
(2) The motion shall be made within a reasonable time, and, if based on sub. (I) (a.) or (c), not more than one
year after the judgment was entered or the order or stipulation was made. A motion based on sub. (Jj
(b) shall be made within the time provided in s. 805.16. A motion under this section does not affect the
finality of a judgment or suspend its operation. This section does not limit the power of a court to
entertain an independent action to relieve a party from judgment, order, or proceeding, or to set aside a
judgment for fraud on the court.
(3) A motion under this section may not be made by an adoptive parent to relieve the adoptive parent from a
judgment or order under s. 48.91 (Jj granting adoption of a child. A petition for termination of parental
rights under s. 48.42 and an appeal to the court of appeals shall be the exclusive remedies for an adoptive
parent who wishes to end his or her parental relationship with his or her adoptive child.
History: Sup. Ct. Order, 67 Wis. 2d 585, 726 (1975); 1975 e. 218: 1997 a. 114.

813.125

Harassment restraining orders and injunctions.

(1) Definitions.
(am) In this section, “harassment" means any of the following:
1. Striking, shoving, kicking or otherwise subjecting another person to physical contact; engaging in an act that
would constitute abuse under s. 48.02 (1). sexual assault under s. 940.225, or stalking under s. 940.32: or
attempting or threatening to do the same.
2. Engaging in a course of conduct or repeatedly committing acts which harass or intimidate another person
and which serve no legitimate purpose.
(bm) In subs. (3) and (4), “household pet" means a domestic animal that is not a farm animal, as defined in
s. 951.01 (3), that is kept, owned, or cared for by the petitioner or by a family member or a household
member of the petitioner.
(2) Commencement of action.
(a) An action under this section may be commenced by filing a petition described under sub. (5 ) (a). No action
under this section may be commenced by service of summons. The action commences with service of the
petition upon the respondent if a copy of the petition is filed before service or promptly after service. If
the judge or a circuit court commissioner extends the time for a hearing under sub. (3) (c) and the
petitioner files an affidavit with the court stating that personal service by the sheriff or a private server
under s. 801.11 (1) (a) or (b) was unsuccessful because the respondent is avoiding service by concealment
or otherwise, the judge or circuit court commissioner shall inform the petitioner that he or she may serve
the respondent by publication of a summary of the petition as a class 1 notice, under ch. 985, and by
mailing or sending a facsimile if the respondent's post-office address or facsimile number is known or can
with due diligence be ascertained. The mailing or sending of a facsimile may be omitted if the post-office

address or facsimile number cannot be ascertained with due diligence. A summary of the petition
published as a class 1 notice shall include the name of the respondent and of the petitioner, notice of the
temporary restraining order, and notice of the date, time, and place of the hearing regarding the
injunction. The court shall inform the petitioner in writing that, if the petitioner chooses to have the
documents in the action served by the sheriff, the petitioner should contact the sheriff to verify the proof
of service of the petition. Section 813.06 does not apply to an action under this section.
(b) Notwithstanding s. 803.01 (3) (a), a child, as defined in s. 813.122 (I) (b). or a parent, stepparent, or legal
guardian of a child may be a petitioner under this section.
(2g) APPOINTMENT of GUARDIAN AD LITEM. The court or circuit court commissioner, on its or his or her own
motion, or on the motion of any party, may appoint a guardian ad litem for a child who is a party under
this section when justice so requires.
(2m) TWO-PART PROCEDURE. If the fee under s. 814.61(1) for filing a petition under this section is waived
under s. 814.61 (1) (e), the procedure for an action under this section is in 2 parts. First, if the petitioner
requests a temporary restraining order the court shall issue or refuse to issue that order. Second, the court
shall hold a hearing under sub. (4j on whether to issue an injunction, which is the final relief. If the court
issues a temporary restraining order, the order shall set forth the date for the hearing on an injunction. If
the court does not issue a temporary restraining order, the date for the hearing shall be set upon motion by
either party.
(3) Temporary restraining order.
(a) A judge or circuit court commissioner may issue a temporary restraining order ordering the respondent to
avoid contacting or causing any person other than a party's attorney or a law enforcement officer to
contact the petitioner without the petitioner's written consent; to cease or avoid the harassment of another
person; to avoid the petitioner's residence, except as provided in par. (am), or any premises temporarily
occupied by the petitioner or both; to refrain from removing, hiding, damaging, harming, or mistreating,
or disposing of, a household pet; to allow the petitioner or a family member or household member of the
petitioner acting on his or her behalf to retrieve a household pet; or any combination of these remedies
requested in the petition, if all of the following occur:
1. The petitioner files a petition alleging the elements set forth under sub. (5) (a).
2. The judge or circuit court commissioner finds reasonable grounds to believe that the respondent has engaged
in harassment with intent to harass or intimidate the petitioner.
(am) If the petitioner and the respondent are not married, and the respondent owns the premises where the
petitioner resides, and the petitioner has no legal interest in the premises, in lieu of ordering the
respondent to avoid the petitioner's residence under par. (a) the judge or circuit court commissioner may
order the respondent to avoid the premises for a reasonable time until the petitioner relocates and shall
order the respondent to avoid the new residence for the duration of the order.
(b) Notice need not be given to the respondent before issuing a temporary restraining order under this
subsection. A temporary restraining order may be entered only against the respondent named in the
petition.
(c) The temporary restraining order is in effect until a hearing is held on issuance of an injunction under
sub. (4J, except that the court may extend the temporary restraining order under s. 813.1285. A judge or
circuit court commissioner shall hold a hearing on issuance of an injunction within 14 days after the
temporary restraining order is issued, unless the time is extended upon the written consent of the parties,
extended under s. 801.58 (2m). or extended once for 14 days upon a finding that the respondent has not
been served with a copy of the temporary restraining order although the petitioner has exercised due
diligence. A judge or court commissioner may not extend the temporary restraining order in lieu of ruling
on the issuance of an injunction.
(d) The judge or circuit court commissioner shall advise the petitioner of the right to serve the respondent the
petition by published notice if with due diligence the respondent cannot be served as provided under

<?

s. 801.11(1) fa) or (b). The clerk of circuit court shall assist the petitioner with the preparation of the
notice and filing of the affidavit of printing.
(e) The judge or circuit court commissioner may not dismiss or deny granting a temporary restraining order
because of the existence of a pending action or of any other court order that bars contact between the
parties, nor due to the necessity of verifying the terms of an existing court order.
(4) Injunction.
(a) A judge or circuit court commissioner may grant an injunction ordering the respondent to avoid contacting
or causing any person other than a party's attorney or a law enforcement officer to contact the petitioner
without the petitioner's written consent; to cease or avoid the harassment of another person; to avoid the
petitioner's residence, except as provided in par. (am ), or any premises temporarily occupied by the
petitioner or both; to refrain from removing, hiding, damaging, harming, or mistreating, or disposing of, a
household pet; to allow the petitioner or a family member or household member of the petitioner acting
on his or her behalf to retrieve a household pet; or any combination of these remedies requested in the
petition, if all of the following occur:
1. The petitioner has filed a petition alleging the elements set forth under sub. (5) (a).
2. The petitioner serves upon the respondent a copy of a restraining order obtained under sub. (3) and notice of
the time for the hearing on the issuance of the injunction under sub. (3) (c). The restraining order or notice
of hearing served under this subdivision shall inform the respondent that, if the judge or circuit court
commissioner issues an injunction, the judge or circuit court commissioner may also order the respondent
not to possess a firearm while the injunction is in effect. The person who serves the respondent with the
order or notice shall also provide the respondent with all of the following information:
a. Notice of the requirements and penalties under s. 941.29 and notice of any similar applicable federal laws
and penalties.
b. An explanation of s. 813.1285. including the procedures for surrendering a firearm and the circumstances
listed under s. 813.1285 under which a respondent must appear at a hearing to surrender firearms.
c. A firearm possession form developed under s. 813.1285 (5) (a), with instructions for completing and
returning the form.
3. After hearing, the judge or circuit court commissioner finds reasonable grounds to believe that the
respondent has engaged in harassment with intent to harass or intimidate the petitioner.
(aj) The judge or circuit court commissioner may not dismiss or deny granting an injunction because of the
existence of a pending action or of any other court order that bars contact between the parties, nor due to
the necessity of verifying the terms of an existing court order.
(am) If the petitioner and the respondent are not married, and the respondent owns the premises where the
petitioner resides, and the petitioner has no legal interest in the premises, in lieu of ordering the
respondent to avoid the petitioner's residence under par. (a) the judge or circuit court commissioner may
order the respondent to avoid the premises for a reasonable time until the petitioner relocates and shall
order the respondent to avoid the new residence for the duration of the order.
(b) The injunction may be entered only against the respondent named in the petition.
(c) An injunction under this subsection is effective according to its terms, but for not more than 4 years, except
as provided in par. (d).
(d)
1. A judge or circuit court commissioner may, upon issuing an injunction or granting an extension of an
injunction issued under this subsection, order that the injunction is in effect for not more than 10 years, if
the court finds, by a preponderance of the evidence stated on the record, that any of the following is true:
a. There is a substantial risk that the respondent may commit first-degree intentional homicide under s. 940,01.
or 2nd-degree intentional homicide under s. 940.05. against the petitioner.
b. There is a substantial risk that the respondent may commit sexual assault under s. 940.225 (1). (2). or £3), or
under s. 948.02 (I) or £2), against the petitioner.

id

2. This paragraph does not prohibit a petitioner from requesting a new temporary restraining order under
sub. 0} or injunction under this subsection before or at the expiration of a previously entered order or
injunction.
(4g) Order; telephone services.
(a) Unless a condition described in par. fb) exists, a judge or circuit court commissioner who issues an
injunction under sub. (4) may, upon request by the petitioner, order a wireless telephone service provider
to transfer to the petitioner the right to continue to use a telephone number or numbers indicated by the
petitioner and the financial responsibility associated with the number or numbers, as set forth in par. (c).
The petitioner may request transfer of each telephone number he or she, or a minor child in his or her
custody, uses. The order shall contain all of the following:
1. The name and billing telephone number of the account holder.
2. Each telephone number that will be transferred.
3. A statement that the provider transfers to the petitioner all financial responsibility for and right to the use of
any telephone number transferred under this subsection. In this subdivision, “financial responsibility"
includes monthly service costs and costs associated with any mobile device associated with the number.
(b) A wireless telephone service provider shall terminate the respondent's use of, and shall transfer to the
petitioner use of, the telephone number or numbers indicated in par. {&} unless it notifies the petitioner,
within 72 hours after it receives the order, that one of the following applies:
1. The account holder named in the order has terminated the account.
2. A difference in network technology would prevent or impair the functionality of a device on a network if the
transfer occurs.
3. The transfer would cause a geographic or other limitation on network or service provision to the petitioner.
4. Another technological or operational issue would prevent or impair the use of the telephone number if the
transfer occurs.
(c) The petitioner assumes all financial responsibility for and right to the use of any telephone number
transferred under this subsection. In this paragraph, “financial responsibility" includes monthly service
costs and costs associated with any mobile device associated with the number.
(d) A wireless telephone service provider may apply to the petitioner its routine and customary requirements
for establishing an account or transferring a number, including requiring the petitioner to provide proof of
identification, financial information, and customer preferences.
(e) A wireless telephone service provider is immune from civil liability for its actions taken in compliance with
a court order issued under this subsection.
(4m) Restriction on firearm possession; surrender of firearms.
(a) If a judge or circuit court commissioner issues an injunction under sub. (4) and the judge or circuit court
commissioner determines, based on clear and convincing evidence presented at the hearing on the
issuance of the injunction, that the respondent may use a firearm to cause physical harm to another or to
endanger public safety, the judge or circuit court commissioner may prohibit the respondent from
possessing a firearm.
(b) An order prohibiting a respondent from possessing a firearm issued under par. (a) remains in effect until the
expiration of the injunction issued under sub. (4).
(c) An order issued under par. £a} that prohibits a respondent from possessing a firearm shall do all of the
following:
1. Inform the respondent named in the petition of the requirements and penalties under s. 941.29 and any
similar applicable federal laws and penalties.
2. Except as provided in par. (eg), require in writing the respondent to surrender any firearms that he or she
owns or has in his or her possession to the sheriff of the county in which the action under this section was
commenced, to the sheriff of the county in which the respondent resides or to another person designated

II

by the respondent and approved by the judge or circuit court commissioner, in accordance with
s. 813.1285.
(eg) If the respondent is a peace officer, an order issued under par. (a) may not require the respondent to
surrender a firearm that he or she is required, as a condition of employment, to possess whether or not he
or she is on duty.
(5) Petition.
(a) The petition shall allege facts sufficient to show the following:
1. The name of the person who is the alleged victim.
2. The name of the respondent.
3. That the respondent has engaged in harassment with intent to harass or intimidate the petitioner.
4. If the petitioner knows of any other court proceeding in which the petitioner is a person affected by a court
order or judgment that includes provisions regarding contact with the respondent, any of the following
that are known by the petitioner:
a. The name or type of the court proceeding.
b. The date of the court proceeding.
c. The type of provisions regarding contact between the petitioner and respondent.
(am) The petition shall inform the respondent that, if the judge or circuit court commissioner issues an
injunction, the judge or circuit court commissioner may also order the respondent not to possess a firearm
while the injunction is in effect.
(b) The clerk of circuit court shall provide simplified forms.
(5g) Enforcement assistance.
(a) Within one business day after an order or injunction is issued, extended, modified or vacated under this
section, the clerk of the circuit court shall send a copy of the order or injunction, or of the order
extending, modifying or vacating an order or injunction, to the sheriff or to any local law enforcement
agency which is the central repository for orders and injunctions and which has jurisdiction over the
petitioner's premises.
(b) The sheriff or other appropriate local law enforcement agency under par. (a) shall enter the information
received under par. (a) concerning an order or injunction issued, extended, modified or vacated under this
section into the transaction information for management of enforcement system no later than 24 hours
after receiving the information and shall make available to other law enforcement agencies, through a
verification system, information on the existence and status of any order or injunction issued under this
section. The information need not be maintained after the order or injunction is no longer in effect.
(c) If an order is issued under this section, upon request by the petitioner the court or circuit court
commissioner shall order the sheriff to accompany the petitioner and assist in placing him or her in
physical possession of his or her residence.
(cm)
1. The clerk of the circuit court shall forward to the sheriff any temporary restraining order, injunction, or other
document or notice that must be served on the respondent under this section and the sheriff shall assist the
petitioner in executing or serving the temporary restraining order, injunction, or other document or notice
on the respondent. The petitioner may, at his or her expense, elect to use a private server to effect service.
2. If the petitioner elects service by the sheriff, the clerk of circuit court shall provide a form supplied by the
sheriff to the petitioner that allows the petitioner to provide information about the respondent that may be
useful to the sheriff in effecting service. The clerk shall forward the completed form to the sheriff. The
clerk shall maintain the form provided under this subdivision in a confidential manner. If a service fee is
required by the sheriff under s. 814.70(1). the petitioner shall pay the fee directly to the sheriff.
(d) The issuance of an order or injunction under sub. (3 ) or £4} is enforceable despite the existence of any other
criminal or civil order restricting or prohibiting contact.

ii

(e) A law enforcement agency and a clerk of circuit court may use electronic transmission to facilitate the
exchange of documents under this section. Any person who uses electronic transmission shall ensure that
the electronic transmission does not allow unauthorized disclosure of the documents transmitted.
(5m) CONFIDENTIALITY OF victim's address. The petition under sub. (5) and the court order under
sub. £3], £4), or (4g) may not disclose the address of the alleged victim. The petitioner shall provide the
clerk of circuit court with the petitioner's address when he or she files a petition under this section. The
clerk shall maintain the petitioner's address in a confidential manner.
(5r) Notice to department of justice.
(a) If an order prohibiting a respondent from possessing a firearm is issued under sub. (4m), the clerk of the
circuit court shall notify the department ofjustice of the existence of the order prohibiting a respondent
from possessing a firearm and shall provide the department ofjustice with information concerning the
period during which the order is in effect and information necessary to identify the respondent for
purposes of responding to a request under s. 165 .63 or for purposes of a firearms restrictions record
search under s. 175.35 (2g) fc) or a background check under s. 175.60 (9g) fa).
(b) Except as provided in par. £c), the department of justice may disclose information that it receives under
par. £a) only to respond to a request under s. 165.63 or as part of a firearms restrictions record search
under s. 175.35 £2g) (c) or a background check under s. 175.60 (9g) (a).
(c) The department ofjustice shall disclose any information that it receives under par. £a) to a law enforcement
agency when the information is needed for law enforcement purposes.
(6) Arrest.
(am) A law enforcement officer shall arrest and take a person into custody if all of the following occur:
1. A person named in a petition under sub. £5j presents the law enforcement officer with a copy of a court order
issued under sub. £3J or (4). or the law enforcement officer determines that such an order exists through
communication with appropriate authorities.
2. The law enforcement officer has probable cause to believe that the person has violated the court order issued
under sub. £3} or £4J.
(c) A respondent who does not appear at a hearing at which the court orders an injunction under sub. £4} but
who has been served with a copy of the petition and notice of the time for hearing under sub. (4) (a)
2. that includes the information required under sub. (4) (a) 2. a., b., and c. has constructive knowledge of
the existence of the injunction and shall be arrested for violation of the injunction regardless of whether
he or she has been served with a copy of the injunction.
(7) PENALTY. Whoever violates a temporary restraining order or injunction issued under this section shall be
fined not more than $10,000 or imprisoned not more than 9 months or both.
(8) NOTICE OF FULL FAITH AND credit. An order or injunction issued under sub. £3) or £4) shall include a
statement that the order or injunction may be accorded full faith and credit in every civil or criminal court
of the United States, civil or criminal courts of any other state and Indian tribal courts to the extent that
such courts may have personal jurisdiction over nontribal members.
History: 1983 a. 336; 1991 a. 39. 194: 1995 a. 71. 306; 2001 a. 16. 6L 105: 2003 a. 321; 2005 a. 272: 2007 a. 129: 2009 a.
262; 2011 a. 35. 266; 2013 a. 2.0. 223, 3.1.1, 32.1, 32’; 2015 a. 109; 2015 a. 195. 253, 349, ,35_3.

Bachowski v. Salamone, 407 N.W.2d S33, 139 Wis.2d 397 {Wis. 1987)

Page 533

Bachowski's petition for an injunction against
Salamone. the two began feuding. The feud
escalated in the summer and fall of 1985 and
a number of their neighbors joined the fray.
On December 5, 1985, Bachowski petitioned
for a sec. 813.125, Stats., injunction
("harassment injunction") [139 Wis.ad 401]
against Salamone. "Hie statute is cited in full
below.2 The petition stated:

407 N.W.ad 533
139 Wis.2d 397
John J. BACHOWSKI, PetitionerRespondent,
v.
Margaret SALAMONE, AppellantPetitioner.
No. 86-0281.
Supreme Court of Wisconsin.
Submitted on Briefs Feb. 10,1987.
Opinion Filed June 19,1987.

Page 535
[139 Wis.ad 402] "My wife and I and
neighbors who will be present at the hearing
have been constantly harrassed (sic) by virtue
of both the actions and conduct of the
respondent, including mam- false charges
made to the Police Department of Hales
Corners, Wisconsin. In addition, physical
damage to property- has been caused by the
conduct of the respondent."

Page 534
[139 Wis.2d 399] Michael B. Rick.
Eugene E. Detert and Godsell, Weber. Bruch
& Rick, S.C., Hales Corners, for appellantpetitioner.
Milton R. Bordow,
petitioner-respondent.

Milwaukee,

for
On the day this petition was filed, the
circuit court granted a temporary' restraining
order (TRO) ex parte based on the petition,
pursuant, to sec. 813.125(3), Stats. The TRO
restrained and enjoined [139 Wis.2.d 403]
Salamone "from harassing John J. Bachowski
in any manner" until the injunction hearing
which was scheduled for December 12, 1985
at 10:30 a.m. On December 9, 1985, at 9:00
p.m., Salamone received notice of this hearing
and a copy of the petition filed by Bachowski.

[139 Wis.2d 400] BABLITCH, Justice.
Margaret Salamone (Salamone) appeals
challenging the constitutionality of sec.
813.125,
Stats. 1985,
the
"harassment
injunction" statute. That statute sets forth the
procedures for obtaining civil injunctive relief
against a person who has allegedly violated
the harassment statute, sec. 947.013(1). 1
Salamone argues the "harassment injunction"
statute 1) fails to provide sufficient notice to
prepare for the final hearing on the
injunction, thereby violating her rights to due
process, and 2) is unconstitutionally vague
and overbroad. We find the statute does
provide sufficient notice, and is neither vague
nor overbroad. However, because the proof
offered at the hearing did not conform to the
conduct alleged in the petition and because,
the specific injunction issued in this case was
overbroad, we conclude the statute was
improperly applied. Accordingly, we reverse.

At the injunction hearing on December
12, Mrs. Bachowski and five neighbors
testified concerning the incidents which
precipitated the harassment petition. Mr.
Bachowski did not testify. Review of the
hearing testimony reveals that both
Bachowski and Salamone may have engaged
in inappropriate conduct toward each other.
The neighbors and Mrs. Bachowski testified
that Salamone
repeatedly y-elled
at
Bachowski, and stared at him and his family.
Salamone asserted that the yelling was in
response to obscene gestures and comments
Bachowski made to her in the presence of her
young children. It was also revealed at the

Salamone and Bachowski are neighbors.
Approximately
two
years
preceding
£

lastcase

-1-

Bachowski v. Salamone. 40T N.W.2d 533,139 Wis.2d 397 (Wis. 19871

hearing that, charges against Bachowski for
improper use of the telephone, stemming
from obscene phone calls allegedly made to
Salamone, were pending. The trial court
acknowledged

that it is not enough that the challenger of a
law
"... establish doubt as to the act's
constitutionality nor is it sufficient that
respondent establish the unconstitutionality
of the act as a probability. Unconstitutionality
of the act must be demonstrated beyond a
reasonable doubt. Every presumption must
be indulged to sustain the law if at all possible
and, wherever doubt exists as to a legislative
enactment's constitutionality, it must be
resolved in favor of constitutionality." State ex
rel. Hammermill Paper Co. v. La Plante, 58
Wis.2d 32, 46, 205 N.W.sd 784 (1973).

Page 536
that Salamone might have a reciprocal claim
for harassment and may also be entitled to an
injunction under sec. 813,125, Stats.
However, the trial court noted that without
having filed a petition for such relief
Salamone’s testimony concerning the actions
of Bachowski which "harassed" her was
simply not relevant to disposition of
Bachowski's injunction request.

With these principles in mind, we turn to
the constitutional challenges to sec. 813.125
raised in this appeal. We begin with the
question of whether certain procedures set
forth in sec. 813.125 violate the notice [139
Wis.2d 405] requirements of the due process
clause of the fourteenth amendment of the
United States Constitution.

The
judge
granted
Bachowski's
injunction concluding that Salamone "has no
right to stand out on her driveway and yell at
another neighbor no matter what the
relationship between those parties is." The
injunction enjoined Salamone for a period of
two years from "harassing petitioner, having
any contact with [139 Wis.2d 404] petitioner
or coming upon petitioner's premises." This
appeal followed.

Salamone asserts that the summary
procedures set forth in sec. 813.125, Stats.,
fail to allow- sufficient time to prepare for the
final hearing on the injunction, thereby
denying her due process.

Salamone argues that the statute is
unconstitutional and, alternatively, that it was
improperly applied. We note that neither the
trial court nor court of appeals have ruled on
the constitutional issues presented in this
case. Nevertheless, the constitutionality of a
statute is a question of law which we review
de novo without deference to the lower courts'
decisions. See State v. Ludwig, 124 Wis.2d
600, 607, 369 NAV.2d 722 (1985).

Under the statute a court may, upon the
filing of a petition by a victim, issue an ex
parte TRO ordering the respondent to "cease
or avoid the harassment" of the victim.
Section 813.125(3X3), Stats. The judge must
hold a hearing on the issuance of the
requested injunction within seven days of the
issuance of the TRO. Section 813.125(3X8).
One of the prerequisites to granting the
injunction is that the court find that the
petitioner has seived upon the respondent a
copy of file TRO and notice of the time for the
hearing on the issuance of the injunction.
Section 813.125(4X3)3.

In reviewing the constitutionality of sec.
813.125, Stats., we recognize that there is a
strong presumption that a legislative
enactment is constitutional. State v. Cassell,
127 Wis.2d 205, 214, 378 N.W.2d 691 (1985).
The party challenging the constitutionality of
a statute assumes a heavy burden of
persuasion. This court has repeatedly- stated

lastcase

We acknowledge that no minimum notice
period is specified in the statute but we must
interpret the statute to avoid constitutional
-2-

/r

Bachowski v. Saiamone, 407 N.W.2d S33,139 Wis.2d 397 (Wis. 1987)

invalidity. See State ex rel. Lynch v. Conta, 71
Wis.2d 662, 689, 239 N.W.2d 313 (1976)
("[gjiven a choice of possible interpretations,
this court must select the construction that
results in constitutionality' rather than
invalidity....”)
Because
an
alternative
construction would render the statute
unconstitutional, we construe notice to mean
"reasonable notice," which is all that is
required by due process. E.g., Jones v. Jones,
54 Wis.2d 41, 45, 194 N.W.2d 627 (1972). The
notice must be "reasonably calculated to
inform the person of the pending proceeding
and to afford him or her an opportunity' to
object and defend his or her rights." In Matter
of Estate of Fessler. 100 Wis.2d 437, 447, 302
N.W.2d 414 (1981). There is nothing in the
statute [139 Wis.2d 406] which precludes the
trial court from recessing the hearing until a
later

doctrine ... stem from concepts of procedural
due process." Id. at 172, 332 N.W.ad 750.
To survive a vagueness challenge a
statute must be sufficiently definite to give
persons of ordinary intelligence who wish to
abide by the law sufficient notice of the
proscribed conduct. Id. at 173, 332 N.W.2d
750; Wilson, 96 Wis.2d at .16, 291 N.W.2d
452. A vague law " ’may trap the innocent by
not providing fair warning.' " Popanz, 112
Wis.2d at 173, 332 N.W.2d 750 quoting,
Grayned v. City of Rockford. 408 U.S. 104.
108, 92 S.Ct. 2294, 2299, 33 L.Ed.2d 222
(1972). It must also permit law enforcement
officers, judges and juries to enforce and
apply the law without forcing them to create
their own standards. Id. "The danger posed
by a vague law is that officials [139 Wis.2d
407] charged with enforcing the law may
apply it arbitrarily or the law may be so
unclear that a trial court cannot properly
instruct the jury as to the applicable law." Id.
at 173, 332 N.W.2d 750. However, it is not
necessary in order to withstand a vagueness
challenge, "for a law to attain the precision of
mathematics or science...." Wilson. 96 Wis.2d
at 16, 291 N.W.ad 452.

Page 537
date if reasonable notice has not been
provided to the respondent. In fact the statute
precludes a judge from granting an injunction
unless "notice," which we construe as
meaning "reasonable" notice, has been given
to the respondent. If a judge fails to delay the
hearing to afford the respondent adequate
time to prepare or grants the injunction when
reasonable notice has not been given to the
respondent, the judge's action may upon
review be deemed an abuse of discretion. We
conclude that the procedures set forth in the
statute are sufficient to provide the type of
notice due process requires.

Saiamone contends that the statutory
definition of harassment set forth in sec.
8.13.125(1)01), Stats., fails to state with
sufficient definiteness or certainty the specific
conduct which is proscribed by the law. That
section defines harassment as "[ejngaging in
a course of conduct or repeatedly committing
acts which harass or intimidate another
person and wftich serve no legitimate
purpose." Section 813.125(1)0). We reject
Salamone's contention that this definition
fails the vagueness test set forth above.
Though the key words in this definition,
"harass" or "intimidate" are not expresslydefined in the statute, to "a person of
ordinary intelligence" these words clearly
connote more than mere bothersome or
annoying behavior. See, e.g., People v.
Malausky. 127 Mi.sc.2d 84, 485 N.Y.S.2d 925,
928
(N.Y.Crim.Ct.1985)
("immature,

We now turn to Salamone's vagueness
challenge. A statute is "unconstitutionally
vague if it fails to afford proper notice of the
conduct it seeks to proscribe or if it
encourages arbitrary- and erratic arrests and
convictions." Milwaukee v. Wilson, 96 Wis.2d
11, 16. 291 N.W.2d 452 (1980). In State v.
Popanz, 112 Wis.2d 166, 332 N.W.2d 750
(1983) this court explained that "[t]he
principles underlying the void for vagueness
-3-

/C,

Bachowski v, Saiamone, 407 N.W.2d S33, 139 Wis. 2d 397 (Wis. 198?)

immoderate, rude or patronizing manner
which annoys another is not enough ..." to
establish a violation of criminal harassment
statute).

requires "intent to harass or intimidate
another person...." Section 947.013(1).
(Emphasis added.)
The legislative history of secs. 813.125
and 947.013, Stats., sheds some light on the
purpose and meaning of these statutes.
According to the analysis of the legislation by
the Legislative Reference Bureau, Wisconsin's
harassment statute was based substantially
on a New York statute. See Drafting File for
1983 Wis. Act 336, see also N.Y. Penal Law
sec. 240.25 (McKinney 1987). That statute in
turn was based on sec. 250.4 of the American
Law Institute's Model [139 Wi,s.2d 409] Penal
Code. A review of the commentary
accompanying New York’s statute and the
model code indicates that the purpose of the
legislation was to extend to the individual the
protections long afforded to the general
public under disorderly conduct or breach of
peace statutes. See Model Penal Code sec.
250.4 comment 1, at 360: N.Y. Penal Law sec.
240.25 Practice Commentary, 300 (McKinney
1987). In reviewing the statute and its history
it is clear the legislature has sought to prevent
repeated assaults on the privacy interests of
individuals without unnecessarily infringing
on their freedom to express themselves
through speech and conduct.

Their meaning can be readily ascertained
by consulting a recognized dictionary1. E.g.,
State v. Wickstrom, 118 Wis.2d 339. 352, 348
N.W.2d 183 (Ct.App.1984). "Harass" means
to worry and impede by repeated attacks, to
vex, trouble or annoy continually or
chronically, to plague, bedevil or badger.
Webster's Third New International Dictionary
1031 (1961). "Intimidate" means "to make
timid or fearful.” Id. at 1184. Moreover, their
meaning is narrowed by the statute's [139
Wis.2d 408] requirement that the acts which
harass or intimidate must be accomplished byrepeated acts or a course of conduct. Section
8i3.i25(.i)(b), Stats. Thus, it is clear that
single isolated acts do not constitute
"harassment" under the statute. E.g., People
v. Hotchkiss, 59 Misc.2d 823, 300 N.Y.S.2d
405, 407 (N.Y.Civ.Ct.1969). The definition of
harassment further requires that the
harassing and intimidating acts "serve no
legitimate purpose." This is a recognition by
the legislature that conduct or repetitive acts
that are intended to harass or intimidate do
not serve a legitimate purpose. Whether acts
Page 538

The statute's history- reveals that the
legislature was attempting to define
harassment with as much precision as the
English language permits. The drafting file
includes early drafts of the statute, modeled
after the New York harassment statute, vvhich
contain much broader definitions of
"harassment." See Drafting File for 1983 Wis.
Act 336. The initial Assembly version of the
bill defined "harassment" as,

or conduct are done for the puipose of
harassing or intimidating, rather than for a
purpose that is protected or permitted by law,
is a determination that must of necessity be
left to the fact: finder, taking into account all
the facts and circumstances. See Model Penal
Code sec. 250.4 comment 5, 368 (1980).
Yet another aspect of the statute narrows
the meaning of "harassment." A TRO or
injunction can only be obtained if the conduct
was intended to harass. Section 813.125(3)
and (4), Stats., requires that a judge find
reasonable grounds to believe that the
respondent violated sec, 947.013, the criminal
harassment statute. That section explicitly

"1. Insulting, taunting or challenging
another person in a manner likely to provoke
a violent or disorderly response.
"2. Striking, shoving, lacking or
otherwise subjecting the other person to
-4-

n

Bachowski v. Saiamone. 407 N.W.2d S33,139 Wis.2d 397 (Wis. 1987)

physical contact, or attempting or threatening
to do the same.

Page 539
legitimate purpose for the acts, render the
harassment provisions of sec. 813.125. Stats.,
sufficiently precise to cany fair warning to the
citizenry. As the Model Penal Code authors
state:

"3. Following the other person in or
about a public place.
"4. Engaging in a course of conduct or
repeatedly committing acts which harass,
annoy, frighten or intimidate the other person
and which serve no legitimate purpose." .1983
Assembly Bill 353.

"Taken together, these elements of the
offense should sufficiently flesh out its
meaning to survive vagueness review. This
conclusion is supported by [139 Wis.2d 411]
the fact that it is probably impossible to do
any better. There is no realistic prospect of
anticipating in a series of more specific
provisions all the ways that persons may
devise to harass others, and without a
residual offense of this sort, many illegitimate
and
plainly reprehensible
forms
of
harassment would not be covered." Model
Penal Code sec. 250.4 comment 6 at 37.1.
(Footnote omitted.)

[139 Wis.2d 410] Over the course of
Assembly
and
Senate
deliberations
definitions (1) and (3) were dropped entirely
and (4) was substantially narrowed. The
legislature may have been aware that the term
"annoy" had been held unconstitutionally
vague by other jurisdictions, e.g.. Bolles v.
People, 189 Colo. 394, 541 P.2d 80, 82-83
(1975)- and in contrast, statutes using the
term "harass" had been ruled sufficiently
specific to survive constitutional challenges
on vagueness grounds. E.g., State v. Hagen,
27 Ariz.App. 722, 558 P.2d 750, 752 (1976):
Commonwealth v. Duncan, 239 Pa.Super.
539, 363 A.2d 803, 806-07 (1976).

It is clear- from sec. 813.125, Stats., that
chronic, deliberate behavior, with no
legitimate purpose designed to harass
another person is proscribed by the statute.
We conclude that the legislature has defined
the conduct proscribed by sec. 813.125 with
sufficient specificity to meet constitutional
requirements with respect to vagueness.

We again emphasize that scientific
precision in drafting is not always possible
nor is it necessary for a statute to withstand a
vagueness challenge. As the United States
Supreme Court explained in the context of a
vagueness challenge to an obscenity statute,
"lack of precision is not itself offensive to the
requirement of due process. '... [T]he
Constitution does not require impossible
standards;' all that is required is that the
language 'conveys sufficiently definite
warning as to the proscribed conduct when
measured by common understanding and
practices....' " Roth v. United States, 354 U.S.
476, 491. 77 S.Ct. 1304, 1312, 1 L.Ed.2d 1498
(1957) (Citation omitted.)

We now turn to Salamone’s overbreadth
challenge. A statute is overbroad when its
language, given its normal meaning, is so
sweeping that its sanctions may be applied to
constitutionally protected conduct which the
state is not permitted to regulate. Wilson, 96
Wis.2d at 19, 291 N.W.2d 452. The essential
vice of an overbroad law is that by sweeping
protected activity- within its reach it deters
citizens from exercising their protected
constitutional freedoms, the so-called
"chilling effect." We reject Salamone’s
argument that sec. 813.125, Stats., has a
chilling effect on free speech. The intent
requirement and the phrase "no legitimate
purpose" make clear that protected
expression is not reached by the statute. See

We also agree with the authors of the
Model Penal Code that the requirements of an
intent to harass and the absence of anv

rastcsse

-5-

H

Bachowski v. Salamone, 40? N.W.2d S33,139 Wis.2d 337 (Wis. 1887)

Model Penal Code sec. 250.4 comment: 6 at
371-72. It is not directed at the exposition of
ideas but at oppressing repetitive behavior
which invades another's privacy interests in
an intolerable manner. [139 Wis.2d 412] We
conclude that the zone of conduct regulated
by this statute is clear. It does not, by its
terms, sweep within its ambit actions which
are constitutionally protected so as to render
it unconstitutionally overbroad.

section requires a petitioner to state facts and
circumstances which describe and support
the specific acts or [139 Wis.2cl 413] conduct
which allegedly constitute the harassing
behavior as defined by secs. 813.125(1X3) and
(i)(b) and 947.013(1X8) and (i)(b).
Significantly, the circuit court form which a
petitioner must file to obtain a harassment
TRO and injunction, requires the petitioner to
specify "what happened when, where, who
did what to whom." Thus, it would he
insufficient, for example.

We now address the question of whether
the statute has been properly applied. We
note that a constitutional statute may be
improperly applied. Cf. Wilson, 96 Wis.2d at
21, 291 N.W.2d 452 ("the fact that a law may
be improperly applied or even abused does
not render it constitutionally invalid.")

Page 540
pursuant to sec. 813.125(5X3) for a petitioner
to simply allege that he or she has been
"harassed or intimidated" by the respondent.
In this case Bachowski alleged in his
petition that he had been constantly harassed
by the actions and conduct of Salamone. The
alleged harassing acts specifically identified in
the petition were that Salamone made false
charges against him to the local police
department and physically damaged his
property-. These specifically identified acts
constitute the type of "facts" which must be
alleged under sec. 813.125(5X3), Stats.
Accordingly, the notice provided was
sufficient.

Salamone argues that the statute has
been improperly applied in several respects:
1) the content of the notice was insufficient;
2) the proof at the hearing was insufficient;
and 3) the injunction was overbroad. We will
address each of these in turn.
1) THE CONTENTS OF THE NOTICE
Salamone claims that the notice was
insufficient to apprise her of the nature of the
claims and the evidence to be produced at the
hearing, thereby leaving her to speculate
about the charges she might have to defend
against. We disagree.

2) THE PROOF AT THE HEARING
At. the hearing on the injunction, no
evidence concerning property- damage or false
charges was offered. The testimony of Mrs.
Bachowski and neighbors largely concerned
Salamone's yelling at the Bachowskis. The
judge stated at the hearing that Salamone's
yelling across the street constituted
harassment. There w?as no proof and there
were no findings concerning the acts and
conduct specified in Bachowski's petitionfalse charges and property damage. Given the
disparity between what was alleged in the
petition and what was offered and proven
[139 Wis.2d 414] at trial, we conclude that the

As previously stated, due process
requires that the notice provided reasonably
convey the information required for parties to
prepare their defense and make their
objections. Estate of Fessler, too Wis.2d at
446-47, 302 N.W.2d 414. We conclude that
compliance with the requirements of sec.
813.125(5X3), Stats., would provide adequate
notice in this regard. That section states: "(5)
Petition, (a) The petition shall allege facts
sufficient to show the following: 1. The name
of the person who is the alleged victim. 2. The
name of the respondent. 3. That the
respondent has violated s. 947.013." This
-6-

11

Bachowski v. Saiamone, 407 N.W.2d 533.139 Wis.2d 397 (Wis. 198?)

proof in this case was insufficient as a matter
of law.

applied, we reverse the decision of the court
of appeals.

3) THE INJUNCTION

The decision of the court of appeals is
reversed.

The violation of an injunction issued
under sec. 813.125, Stats., is a criminal
offense. Substantial fines and imprisonment
could result. Section 813.125(7). Accordingly,
injunctions issued under this section must be
specific as to the acts and conduct which are
enjoined.

SHIRLEY S. ABRAHAMSON, Justice
(concurring).
I agree with the majority that the
injunction issued in this case should be
vacated, but I do not agree that the court
needs to reach the constitutional question.
The court has said that it will not generally
decide constitutional questions if the case can
be resolved on other grounds. Labor and
Farm Party v. Election Board, 117 Wis.2d 351,
354. 344 N.W.2d 177 (1984). I conclude that
secs. 813.125(1)0.) and 947.013(1)0), Stats.
1985-86, define harassment to encompass
conduct and acts only, not verbal
communication. Because this case involves
only speech, the case does not fall within the
statutes as 1 believe the statutes should be
interpreted. If the statutes are interpreted to
include speech, they are, in my opinion,
unconstitutional.

We conclude that the injunction issued in
this case does not meet these standards. The
judge restrained Saiamone from "harassing
petitioner, having any contact with petitioner
or coming upon petitioner's premises." The
enjoined conduct is described too broadly.
The statute contemplates that the court will
ultimately determine whether acts which
allegedly harass a person do in fact constitute
harassment under the statute. See sec.
813.124(4X3)3, Stats. Only the acts or
conduct which are proven at trial and form
the basis of the judge's finding of harassment
or substantially similar conduct should be
enjoined.

Page 541
In this case the judge concluded that
Salamone's repeated yelling at Bachowski
constituted harassment. The judge's order
enjoins
Saiamone
from
"harassing"
Bachowski or having "any contact" with him.
This language, unfortunately, could proscribe
conduct which is constitutionally protected,
e.g., distributing campaign literature, or
which
simply would not
constitute
harassment under the statute, e.g.. saying
good morning to Mr. Bachowski or his family.
Thus, we conclude the injunction is drafted
too broadly and is therefore invalid.

I.
Both sec. 813.125(1) and sec. 947.013(1)
define harassment as follows:
"(a) Striking, shoving, kicking or
otherwise subjecting another person to
physical contact or attempting or threatening
to do the same;" or
"(b) Engaging in a course of conduct or
repeatedly committing acts which harass or
intimidate another person and which serve no
legitimate purpose."

In summary, we conclude that the statute
is constitutional with respect to the notice
required by [139 Wis.2d 415] due process.
The statute is neither vague nor overbroad.
However, because the statute was improperly

[139 Wis.2d 416] I conclude that the
w-ords "course of conduct" and "repeatedly
committing acts" in secs. 813.125(1)01) and
947.oi3(i)(b) encompass only conduct, not
-7-

lo

Bachowski v. Saiamone, 40? N.V¥.2ci 533,139 Wis.Zti 397 fWis. 1987)

speech. I rest this conclusion on the text and
the legislative history of the statutes.

communication." See American Law Institute,
Model Penal Code, sec. 250.4. Comment 6, p.
371 (1980). All the examples the Commentary
[139 Wis.2d 418] gives to illustrate a course of
alarming conduct are acts, not verbal
communication. Id.

Looking first to the text of the statutes. I
note that the dictionary defines the words
"conduct" and "acts" as actions, performances
and deeds, not as speech.

Page 542
Looking next to the legislative history of
the statutes, 1 conclude that the great weight
of the evidence indicates that the legislature
intended the words "course of conduct" and
"repeatedly committing acts" to regulate
conduct and not speech.

Confirming tins reading of the statute,
the Colorado Supreme Court interpreted its
statute which has language substantially
similar to that in sec. 813.125(1)05) and
947.0i3(i)(b). Stats. 1985-86. and sec.
2,50.4(5) of the Model Penal Code as
prohibiting
"conduct
than
rather
communication." People v. Norman, 703 P.2d
1261,1267 (Colo.1985).

The first piece of evidence in the
legislative history demonstrating that the
Wisconsin legislature did not intend to
include speech in the harassment statutes is
that the Wisconsin legislature deliberately
omitted from its definition of harassment
both the New York’s and the Model Penal
Code's provisions defining harassment to
include certain kinds of speech. As the
majority
correctly
explains.
secs.
813.125(1X3), (b) and 947.013(1X3), (b) are
based substantially on a New York statute 1
which was in turn [139 Wis.2d 417] based on
sec. 250.4 of the American Law Institute's
Model Penal Code. 2 See pp. 538-539. The
Wisconsin legislature adopted only two
provisions defining harassment, and both
provisions—offensive touching and a course of
conduct or repeated acts—do not on their face
relate to verbal communications.

On the basis of the text and legislative
history of the Wisconsin statutes, I conclude
that the legislature did not intend to include
verbal communications within the words
"course of conduct" and "repeatedly
committing acts" in secs. 8i3.i25(i)(b) and
947.oi3(i)(b). Because this case involves
verbal communication, it does not fall within
the statutes. Accordingly I concur that the
injunction should be vacated.
H.
The majority needlessly reads a
constitutional defect into the statutes by
construing the statutes to cover verbal
communications. As interpreted by the
majority opinion sec. 813.125(1)^) and sec.
are,
947.oi3(i)(b)
in
my
opinion.
unconstitutionally vague and overbroad.
Amends. I, XIV, U.S. Const.

A second piece of evidence in the
legislative history demonstrating that the
Wisconsin legislature did not intend to
include speech within the harassment statute
is that sec. 250.4(5) of the Model Penal Code
(set forth in note 2), upon which sec.
813.125(1)03) and 947.013(1)00 are based,
does not regulate speech. The Commentary to
the Model Penal Code explains that the
phrase "course of alarming conduct" in sec.
250.4(5) of the Code encompasses only acts;
the "core of the prohibition" in sec. 250.4(5)
is "harassment by action rather than by

lastcase

When the legislature seeks to regulate
conduct through resort to the criminal law, it
must identify [139 Wis.2d 419] the proscribed
conduct definitely enough "to provide
standards for those who enforce the laws and
those who adjudicate guilt." State v. Popanz,
112 Wis.2d 166. 173, 332 N.W.ad 750 (1983).
These "standards cannot lie only in the minds
-8-

M

Bachowski v. Salamone, 407 N.W.2d S33, 139 Wis.2d 397 (Wis, 1987S

of persons whose duty it is to enforce the
laws," id. at 176, 332 N.W.ad 750, for
"[defining the contours of laws subjecting a
violator to a criminal penalty is a legislative,
not a judicial, function.” Id. at 177, 332
N.W.2d 750.

term harass. Two of the aspects of the statute
on which the majority relies to "narrow" the
meaning of the statute, multiplicity of
harassing acts and intent to harass, can
hardly clarify the meaning of the term
"harass" since their meaning depends on the
meaning of harass.

Where the legislature's regulation
includes expression, "the standards of
permissible statutory' vagueness are strict."
N.A.A.C.P. v. Button, 371 U.S. 415, 432, 83
S.Ct. 328, 337. 9 L.Ed.2d 405 (1963).

The majority appears to conclude that the
third aspect of the statute, that harassing acts
"serve no legitimate purpose," does not
narrow the meaning of the statute.4

The statutory’ provisions at issue in this
case are "catchalls" designed to prohibit
forms of harassment without specifically
describing them. The drafters of the Model
Penal Code emphasized that what made sec.
250.4(5) (upon which the Wisconsin
provisions are based)
constitutionally
palatable was the fact that it proscribed action
rather than communication and did not
"sweep within its ban any significant area of
protected speech." Model Penal Code.
Commentary 6, p. 371-72. As interpreted by
the majority’, however, the Wisconsin statutes
lack this essential limitation. The drafters of
the Model Penal Code recognized that if these
catch-all provisions were to include speech,
they must sketch more than the general
outlines of the prohibited speech in order to
survive a vagueness challenge.

Page 543
[139 Wis.2d 421] On the issue of
overbreadth, 1 conclude that the majority’
opinion has created "a 'danger zone' within
which protected expression may be
inhibited." Dombrowski v. Pfister, 380 U.S.
479, 494, 85 S.Ct. 1116. 1125, 14 L.Ed.2d 22
(1965). "Because first amendment freedoms
need breathing space to survive, government
mayr regulate in the area only’ with narrow
specificity’." Button, 371 U.S. at 433, 83 S.Ct.
at 338. Vague statutes that regulate speech,
simply by virtue of the fact that the true
extent, of their restriction of speech is
unknown, create a threat of prosecution of
protected speech that unacceptably chills the
exercise of free speech rights. Cf. Houston v.
Hill, — U.S. —, 107 S.Ct. —. 95 L.Ed.2d —
- No. 86-243, (June 15, 1987) (the United
States Supreme [139 Wis.2d 422] Court held
that a city ordinance making it unlawful for
any person to "in any manner oppose, molest,
abuse or interrupt any policeman in the
execution of his duty" was substantially
overbroad because, it broadly criminalized
speech which interrupts a police officer
without regal’d to whether the speech was
protected).

The majority’ fails in its attempt to make
the word harass definite by using the
dictionary. Although this court traditionally
employs the dictionary in construing statutes,
the fact that a dictionary defines a term does
not in itself make the term definite. The
dictionary’ definition quoted by the majority,
for instance, [139 Wis.2d 420] equates
"harass" with terms of equal breadth, such as
"annoy" (which the majority itself recognizes,
p. 538. has been found unconstitutionally
vague by several courts).

In the end, the majority's conclusion that
the statute is constitutional rests on the idea
that clarity and specificity in the injunctions
fashioned by judges to enforce the statute can
somehow’ cure the constitutional difficulties
inherent in the statute. Clarity in the

Equally unsuccessful is the majority's
reliance on other components of the statutory
defini tion to reveal the hidden contours of the
-9-

11

Bachowski v. Saiamone, 407 N.W.2d S33, 139 Wis.2d 397 (Wis. 1987)

injunctions, however, cannot cure the
vagueness of the statute. Before a judge may
issue an injunction the judge must find
reasonable grounds to believe that the
defendant has engaged in the conduct
proscribed by sec. 947.013(1)0). See sec.
813.125(4X3)3. The judge's authority to
enjoin any specific act therefore derives from
the language of the statute and depends on
the statute being explicit enough to tell the
judge what conduct is proscribed. As the
United States Supreme Court has said, "if
arbitrary and discriminatory enforcement is
to be prevented, laws must provide explicit
standards for those who apply them. A vague
law impermissibly delegates basic policy
matters to policemen, judges, and juries for
resolution on an ad hoc and subjective basis,
with the attendant dangers of arbitrary and
discriminatory application." Grayned v. City
of Rockford, 408 U.S. 104, 108-09, 92 S.Ct.
2294, 2299, 33 L.Ed.ad 222 (1972).

illegitimate purposes. The judiciary' must then
translate that difficult sifting process into
detailed rules of permissible speech, which
are then incorporated into an injunction
enforced by a criminal sanction.
This statute represents a good faith
attempt by the legislature to grapple with a
serious and difficult problem in our complex
society. Nevertheless, if the legislature
intends, as the majority- holds, to use the
criminal law to vindicate privacy interests
against speech, the legislature must clearly
identify the prohibited speech.
For the reasons set forth, I concur in the
mandate but I do not join the opinion.
I am authorized to state that Chief Justice
NATHAN S. HEFFERNAN joins this
concurrence.

In addition, the specificity of injunctions
will not reduce the overbreadth problem.

1 "947.013 Harassment. (1) Whoever, with
intent to harass or intimidate another person,
does any of the following is subject to a Class
B forfeiture:

Page 544
because the broad language of the statute will
still chill the exercise of free speech rights.
The permissibility of speech in an individual
case under the statute wall hang on a [139
Wis.2d 423] possibly extended battle in the
courts at both the trial and the appellate level.
As the United States Supreme Court has said,
the overbreadth doctrine is designed to avoid
"making vindication of freedom of expression
await the outcome of protracted litigation."
Dombrowski, 380 U.S. at 487, 85 S.Ct. at

"(a) Strikes, shoves, kicks or otherwise
subjects the person to physical contact or
attempts or threatens to do the same.
"(b) Engages in a course of conduct or
repeatedly commits acts which harass or
intimidate the person and which serve no
legitimate purpose.”
2 "813.125 Harassment restraining orders and
injunctions. (1) DEFINITION. In this section,
'harassment' means any of the following:

1121.

In an increasingly crowded and
interdependent world, this statute invites the
judiciary7 to intervene routinely to an
unprecedented extent in people’s everyday
speech in ordinary contexts—from the back
yard to the school yard. It puts the judiciary7
in the business of sifting harassing from non­
harassing speech and legitimate from

s.iastcase

"(a) Striking, shoving, kicking or otherwise
subjecting another person to physical contact
or attempting or threatening to do the same.
"(b) Engaging in a course of conduct or
repeatedly committing acts which harass or
intimidate another person and which serve no
legitimate purpose.
-10-

U

Bachowski v. Salamone. 40? N.W.2d 533,139 Wis.2d 397 (Wis. 1987j

"(2) COMMENCEMENT OF ACTION. An
action under this section may be commenced
by filing a petition described under sub.
(5)0*). No action under this section may be
commenced by sendee of summons. Section
813.06 does not apply to an action under this
section.

sub. (3) and notice of the time for the hearing
on the issuance of the injunction under sub.
(3)(c).
"3. After hearing, the judge finds reasonable
grounds to believe that the respondent has
violated section 947.013.
"(b) The injunction may be entered only
against the respondent named in the petition.

"(3) TEMPORARY RESTRAINING ORDER,
(a) A judge may issue a temporary restraining
order ordering the respondent to cease or
avoid the harassment of another person, if all
of the following occu r:

"(c) An injunction under this subsection is
effective according to its terms, but for not
more than 2 years.

'Y. The petitioner files a petition alleging the
elements set forth under sub. (5)(a).

"(5) PETITION, (a) The petition shall allege
facts sufficient to show the following:

"2. The judge finds reasonable grounds to
believe that the respondent has violated
section 947.013.

"1. The name of the person who is the alleged
victim.
"2. The name of the respondent.

"(b) Notice need not be given to the
respondent before issuing a temporary
restraining order under this subsection. A
temporary' restraining order may be entered
only against the respondent named in the
petition.

"3. That the respondent has violated section
947-013.
"(b) The clerk of circuit court shall provide
simplified forms.

"(c) The temporary restraining order is in
effect until a hearing is held on issuance of an
injunction under sub. (4). A judge shall hold a
hearing on issuance of an injunction within 7
days after the temporary restraining order is
issued, unless the time is extended upon the
written consent of the parties or extended
once for 7 days upon a finding that the
respondent has not been served with a copy of
the temporary restraining order although the
petitioner has exercised due diligence.

"(6) ARREST. A law enforcement officer shall
arrest and take a person into custody if all of
the following occur:
"(a) A person named in a petition under sub.
(5) presents the law enforcement officer with
a copy of a court order issued under sub. (3)
or (4), or the law enforcement officer
determines that such an order exists through
communication with appropriate authorities.
"(b) The law enforcement officer has probable
cause to believe that the person has violated
the court order issued under sub. (3) or (4).

"(4) INJUNCTION, (a) A judge may grant an
injunction ordering the respondent to cease
or avoid the harassment of another person, if
all of the following occur:

"(7) PENALTY’. Whoever violates a temporary
restraining order or injunction issued under
this section shall be fined not more than
$1,000 or imprisoned not more than 90 days
or both."

"1. The petitioner has filed a petition alleging
the elements set forth under sub. (s)(a).
"2. The petitioner senes upon the respondent
a copy of a restraining order obtained under

fastcase
-

-t-yc livr; l

1 The New York statute provides:
-u-

Bachowski v. Saiamone, 407 N.W.2d 533.139 Wis.2d 397 (Wis. 1987}

"Section 240.25 Harassment

(5) engages in any other course of alarming
conduct serving no legitimate purpose of the
actor."

A person is guilty of harassment when, with
intent to harass, annoy or alarm another
person:

3 The Model Penal Code recognizes that "it
may be possible that some instance of
harassing conduct
is so imbued with
implicate firstexpressive content as to
amendment concerns, but such a case would
probably be excluded bythe statutory
requirements that the action serve no
legitimate purpose of the actor and that there
be a purpose to harass." Model Penal Code,
sec. 250.4, Comments, p. 371-372.

1. He strikes, shoves, kicks or otherwise
subjects him to physical contact, or attempts
or threatens to do the same; or
2. In a public place, he uses abusive or
obscene language, or makes an obscene
gesture; or
3. He follows a person in or about a public
place or places; or

4 The question arises whether the Wisconsin
statute prohibits conduct, for example, of a
debt collector whose purpose is to get paid (a
legitimate purpose) or of an individual whose
purpose is to gain the affection of another,
even if a court may view the conduct as
having the purpose to harass or intimidate.
See State v. Sarlund. 139 Wis.2d 386, 407
N.W.2d 544 (of even date).

4. As a student in school, college or other
institution of learning, he engages in conduct
commonly called hazing; or
5. He engages in a course of conduct or
repeatedly commits acts which alarm or
seriously annoy such other person and which
serve no legitimate purpose.
Harassment is a violation."

The majority construes the "no legitimate
purpose" requirement as a legislative
recognition "that conduct or repetitive acts
that are intended to harass or intimidate do
not serve a legitimate purpose." At 538.
Under the majority's interpretation, it
appears that perhaps one cannot have two
purposes: to harass and to achieve a lawful
goal. The majority might be read as collapsing
the two statutory7 elements, "intent to harass"
and "no legitimate purpose," into one. The
Model Penal Code makes clear that the two
are separate elements of the offense of
harassment.

New York Penal Code, sec. 240.25.
2 The Model Penal Code, sec. 250.4, provides:
"Section 250.4 Harassment
A person commits a petty misdemeanor if,
with purpose to harass another, he:
(1) makes a telephone call without purpose of
legitimate communication; or
(2) insults, taunts or challenges another in a
manner likely to provoke violent or disorderly
response; or

Insight into how the "no legitimate purpose"
requirement was designed to function is
gained by examining the several subsections
of sec. 250.4 of the Model Penal Code quoted
at note 2. Only subsections (1) and (5) of sec.
250.4 include "no legitimate purpose"
language; subsections (2). (3), and (4) do not
include the "no legitimate purpose" language.
See text of Code, note 2 supra.

(3)
makes
repeated
communications
anonymously or at extremely inconvenient
hours, or in offensively coarse language; or
(4) subjects another to an offensive touching;
or

-12-

Bachowski v. Saiamone, 407 N.W.2d S33,138 Wis.2d 397 (Wis. 1987)

The Commentary to the Model Penal Code
explains that a person making "a single call
for the purpose of legitimate communication
cannot be punished under Subsection (l),
even if it is made with the intent to harass.
Although
the
'legitimate
phrase
communication' invites judicial development,
it plainly excludes many calls that are
intended to annoy the recipient and that have
precisely that effect.... A single call made to
harass another into paying a debt could not
be punished under Subsection (t) ...
Subsection (3) addresses the more complex
situation of calls made with the intent to
harass but also with the purpose of legitimate
communication." Model Penal Code. sec.
250.4, Comment 2. p. 362.
The Commentary to the Model Penal Code
further explains that the framers of
subsection (5), the catch-all provision upon
which the Wisconsin statute is based,
included only conduct that has "no legitimate
purpose", in an attempt to limit the broad
reach of the subsection. "The import of the
phrase [no legitimate purpose!... is broadly to
exclude from this subsection any conduct that
directly furthers some legitimate desire or
objective of the actor. This element of the
residual offense should limit its application to
unarguably reprehensible instances of
intentional imposition on another." Model
Penal Code, sec. 250.4, Comment 5, p. 368.
For further discussion of the concept of
legitimate purpose, see 1961. All Proceedings,
pp. 225-226.

-13-

Zc

